Audit Report




OIG-11-095
SAFETY AND SOUNDNESS: Failed Bank Review of Coastal Bank
August 30, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                              August 30, 2011


             OIG-11-095

             MEMORANDUM FOR JOHN G. WALSH
                            ACTING COMPTROLLER OF THE CURRENCY

             FROM:                 Jeffrey Dye /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of Office of Thrift Supervision Regulated
                                   Coastal Bank, Cocoa Beach, Florida


             This memorandum presents the results of our review of the failure of Coastal Bank
             (Coastal), located in Cocoa Beach, Florida. Coastal was regulated by the Office of
             Thrift Supervision (OTS). We are providing the results of this review for your
             information since the Office of the Comptroller of the Currency (OCC) assumed
             regulatory responsibilities for federal savings associations pursuant to
             P.L. 111-203.

             Coastal opened as a de novo institution in February 1999. It had a main office in
             Cocoa Beach and another branch in Merritt Island, Florida. The thrift was wholly
             owned by Coastal Bancorporation, Inc. (CBI), a unitary, non-diversified thrift
             holding company. OTS closed Coastal and appointed the Federal Deposit Insurance
             Corporation (FDIC) as receiver on May 6, 2011. As of March 31, 2011, Coastal
             had approximately $129.4 million in total assets and $123.9 million in total
             deposits. At the time of closing, FDIC estimated the loss to the Deposit Insurance
             Fund to be $13.4 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Coastal that was limited to (1) ascertaining the grounds
             identified by OTS for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver, (2) reviewed OTS reports of examination, and
             (3) interviewed an OTS examiner and review examiner.

             We conducted this performance audit in May and June of 2011 in accordance with
             generally accepted government auditing standards. Those standards require that
             we plan and perform the audit to obtain sufficient, appropriate evidence to provide
OIG-11-095
Page 2

a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.


Causes of Coastal Bank’s Failure
OTS appointed FDIC receiver based on the following grounds: (1) the thrift was
undercapitalized and failed to submit an acceptable capital restoration plan and
(2) the thrift had substantially insufficient capital.

The primary cause of Coastal’s failure was its high concentration of commercial
real estate and land loans. Adverse economic conditions and a depressed real
estate market in Brevard County, Florida, led to asset quality deterioration and
capital erosion beginning in 2008. In addition, Coastal’s management failed to
adequately identify, measure, monitor, and control credit and concentration risk,
and Coastal’s board did not sufficiently challenge or alter the strategies of the
thrift’s president. Ultimately, CBI decided not to make any further investments of
capital into the thrift and Coastal was unable to raise additional capital, which
ultimately resulted in its failure.

Our review of Coastal revealed certain matters that we referred to the Treasury
Inspector General’s Office of Investigation.


Conclusion
Based on our review of the causes of Coastal’s failure and the grounds identified
by OTS for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the thrift’s failure or the supervision exercised by OTS.
Accordingly, we have determined that a more in-depth review of the thrift’s failure
by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC did not provide specific comments on the memorandum contents.
The response is provided as Attachment 1. A list of the recipients of this
memorandum is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Theresa Cameron, Audit Manager, at (202) 927-1011.

Attachments
         OIG-11-095

       Attachment 1
Management Response
                                                   OIG-11-095

                                                 Attachment 2
                                                   Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
